Case No. No. 20-379
IN THE

Supreme Court of the United States
CERTAIN UNDERWRITERS AT LLOYD’S, LONDON Subscribing to
Insurance Policy Numbers SS0002114/2730 and SS0002115/2566,
Unknown Persons or Business Entities of Unknown Residence
Petitioners,
v.
BRIGHTON COLLECTIBLES, LLC, a Delaware Limited Liability
Company,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATION OF COMPLIANCE

ERIC M. GEORGE, ESQ.*
egeorge@bgrfirm.com
PETER W. Ross, ESQ.
pross@bgrfirm.com
BROWNE GEORGE ROSS
O’BRIEN ANNAGUEY & ELLIS LLP
2121 Avenue of the Stars, Suite 2800
Los Angeles, CA 90067
(310) 274-7100
*Counsel of record
Counsel for Respondent Brighton Collectibles, LLC

1685738.1

1685738.1

As counsel of record for respondent, and as required by Supreme Court Rules
33.1(h) and 33.2(b), I certify this 26th day of October, 2020, that the Brief in
Opposition to Petition for a Writ of Certiorari is 3,099 words and 15 pages, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

Respectfully submitted,
By:

/s/Eric M. George
Eric M. George
Counsel for Respondent Brighton Collectibles, LLC

1685738.1

